No.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
RANDY T. THOMAS - PETITIONER

PROOF OF SERVICE
I RANDY T. THOMAS, do swear or declare that on this date MAY 14.2019. as required by
Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PA UPERIS and PETITION FOR A WRIT OF CERTORIAR on each part to the
above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
address to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Steve Stanson; Petersburg Utility Lines Water Department: 103 W. Tabb St. Petersburg.
VA
Kimberly Robertson: Petersburg Utility Line Water Department: 103 W. Tabb St.
Petersburg. VA
Anthony Williams: Petersburg Utility Line Water Department: 103 W. Tabb St.
Petersburg. VA
Ms. Jamon; Petersburg Utility Line Water Department: 103 W. Tabb St. Petersburg. VA
Sgt. Hall; Petersburg Utility Line Water Department: 103 W. Tabb St. Petersburg. VA
Jim Reed; Petersburg Utility Line Water Department: 103 W. Tabb St. Petersburg. VA
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

T
Randy T. Thomas

